REVIEW OF SBA’S JOB CREATION DATA

    UNDER THE RECOVERY ACT 




         Report Number: ROM 10-15 

         Date Issued: April 30, 2010 

           U.S. Small Business Administration
           Office Inspector General                Memorandum
    To:    Eric Zarnikow                                              Date:   April 30, 2010
           Associate Administrator for Capital Access

  From:    Debra S. Ritt /S/ Original Signed 

           Assistant Inspector General for Auditing 


Subject:   Review of SBA’s Job Creation Data Under the Recovery Act 

           Report Number ROM 10-15 


           This memorandum presents the results of our review of job creation and retention
           statistics reported by the Small Business Administration (SBA) under the
           American Recovery and Reinvestment Act of 2009 (Recovery Act). The Office of
           Inspector General (OIG) conducted this review in response to the Recovery
           Accountability and Transparency (RAT) Board’s focus on ensuring the reliability
           of job creation and retention data reported by Federal agencies. Our objective was
           to determine whether lenders reliably reported job creation and retention statistics.
           While SBA’s two major loan programs, known as the 7(a) and 504 loan programs,
           are not subject to recipient reporting requirements under section 1512 of the
           Recovery Act, SBA reports job creation and retention statistics in its monthly
           Recovery Act Program Performance Report published on its website.

           To conduct our review, we reviewed a sample of 30 Recovery Act loans from
           7(a) program which disbursed between March 16, 2009 and May 31, 2009. We
           also reviewed a sample of 30 Recovery Act loans from the 504 program which
           were approved between March 16, 2009 and June 30, 2009. The samples were
           selected from loan data extracted from SBA’s Loan Accounting System. For each
           sampled loan, we reviewed the loan file to determine whether there was
           documentation provided to support job statistics. Because SBA does not require
           support in the loan file, we could not determine the reliability of borrower reported
           data. Instead, we focused our efforts on determining whether lenders and Certified
           Development Companies (CDCs) collected and reported job statistics consistent
           with SBA’s guidance. To gain an understanding of SBA guidance and the job
           reporting process, we reviewed SBA regulations, standard operating procedures
           (SOP), and policy notices pertaining to job creation and retention. We also
           interviewed Agency officials and lenders. See Appendix I for a full description of
           our scope and methodology.
                                                                                    2


We conducted our review from September 2009 to January 2010 in accordance
with Government Auditing Standards prescribed by the Comptroller General of the
United States.

BACKGROUND

On February 17, 2009, the Recovery Act was signed into law in response to the
economic crisis. The Recovery Act provided SBA with $730 million to increase
the availability of credit to small businesses. One of the public policy goals of the
Act was to sustain and create jobs during an economic downturn. To measure the
performance of the Recovery Act, the Office of Management and Budget (OMB)
required Agencies to develop program plans and quantifiable measures to assess
the impact of Recovery Act programs. SBA selected job creation and retention as
a performance measure for its Recovery Act loan programs.

The Recovery Act also established the Recovery Accountability and Transparency
(RAT) Board to coordinate and conduct oversight of funds distributed under the
Act. Because of the heightened focus on jobs, the RAT Board emphasized to
Offices of Inspector General the importance of ensuring the reliability of job
creation and retention data being reported by Federal agencies.

The 7(a) Loan Guaranty program is SBA’s largest lending program and is the
principal vehicle for providing small businesses with access to credit that cannot
be obtained elsewhere. Under this program, SBA guarantees a portion of loans
made and administered by commercial lending institutions. Community Express
is a pilot subprogram of 7(a) in which borrowers also receive technical and
management assistance from a local non-profit provider and/or from participating
lenders. SBA’s 504 Loan program provides small businesses with long-term,
fixed-rate financing, in the form of government-guaranteed loans, for the purchase
of land, buildings, machinery, and other fixed assets. These loans are issued
through a partnership with CDCs and private sector third-party lenders and are
funded through the issuance of government-guaranteed debentures.

Although job creation and retention are not criteria for 7(a) program eligibility,
applicants are required to report on their application the number of employees at
the time of application and the number of employees “if [the] loan is approved.”
From this data, lenders determine the number of jobs created and retained and
transmit the information to SBA. In the 504 loan program, where job creation and
retention is a program criteria, applicants are required to report the number of
current employees, jobs to be created in the next 2 years, and jobs to be retained
because of the loan; CDCs transmit this data to SBA. The Agency reports “jobs
created/retained” for these programs in its monthly Recovery Act Program
Performance Report. See Appendix II for an example of this report.
                                                                                                                    3


A prior OIG audit1 raised questions about whether SBA had the appropriate
controls to ensure the integrity of lender-reported job data and determined that
SBA may have overstated job creation and retention. While the prior audit
focused on SBA’s management of the data in its databases, this review reports on
how the information is gathered and transmitted to the Agency.

RESULTS

CDCs reported job creation and retention statistics consistent with 504 program
guidance. However, because SBA has not defined or provided lenders guidance
on how jobs retained are to be measured in the 7(a) program, lenders are generally
reporting all existing jobs at the applicant’s business as “jobs retained.” As a
result, SBA’s reporting of 7(a) job retention is unclear and misleading. The risk of
confusion is compounded by the fact that “jobs created/retained” for the 7(a) and
504 loan programs are reported side by side, even though they are not comparable.

Job Creation and Retention Reporting by CDCs Is Consistent with 504
Program Guidance

CDCs reported job statistics for the loans in our sample consistent with 504
program guidance. SBA defines both job creation and retention in SOP 50 10 5,
and provides additional guidance in its CDC Annual Report Guide. SOP 50 10 5
defines a job opportunity as “a full time (or equivalent) permanent job created
within two years of receipt of 504 funds, or retained in the community because of
a 504 loan.” Further, the CDC Annual Report Guide defines jobs retained as “jobs
that otherwise might be lost to the community if the project was not done.” It also
specifically instructs CDCs not to “count all existing jobs as being retained if they
were not at risk of being lost.”

The 504 loan application (Form 1244) specifically asks CDCs to report: (1) the
number of jobs to be created in the next 2 years; and (2) the number of jobs to be
retained because of the project. CDCs we interviewed demonstrated a consistent
understanding of SBA’s definitions and guidance on the reporting of job statistics.

SBA’s Reporting of 7(a) Job Retention is Unclear and Misleading

In contrast to job retention reported in the 504 program, 7(a) lenders reported all
current employees at the time of application as retained jobs for 90 percent of the
loans in our sample. The job data reported by lenders for each sampled loan is
included in Appendix III.

1
    Review of Controls Over Job Creation and Retention Statistics Reported by SBA Under the American Recovery and
    Reinvestment Act of 2009, ROM 10-04, December 4, 2009.
                                                                                                                       4


Lender reporting was impacted by the lack of lender guidance and a definition of
“jobs retained” for the 7(a) program. A review of Part 120 of Title 13 of the Code
of Federal Regulations, SOP 50 10 5, and SBA policy notices disclosed no lender
guidance related to reporting jobs retained. Agency officials confirmed that no
guidance has been issued.

Further, the 7(a) loan application (Form 42) does not ask borrowers to report jobs
retained. Instead, the form asks the applicants to report the number of employees
at time of application and the number of employees “if [the] loan is approved.”
From this information, the lender must report the number of current employees,
jobs created, and jobs retained to report to SBA through Form 1920SX or E-Tran3.
While the 7(a) Community Express application (Form 19194) specifically asks for
jobs retained, borrowers and lenders reported all employees at the time of
application as jobs retained. We found this also to be the case for the 11
Community Express loans in our sample. SBA Forms 4, 1919, and 1920SX are
attached in Appendix IV for reference. Lenders we interviewed told us that, in the
absence of guidance or training from the Agency, they were left to interpret jobs
retained as all current employees.

In implementing the Recovery Act, OMB stated specific accountability objectives,
including that the public benefits of these funds be reported clearly, accurately,
and in a timely manner. The lack of a definition for “jobs retained” and the
discrepancy in the forms used to collect job statistics from 7(a) borrowers and
lenders has resulted in a performance metric with questionable clarity and
transparency. In SBA’s Recovery Act Program Performance Report, the same
term is effectively used to describe total employment in the 7(a) program and jobs
at risk of being lost in the 504 program, which results in unclear and misleading
reporting. Thus, a reader might interpret that all jobs would be lost without the
7(a) loan. The risk of reader confusion is compounded by the fact that jobs
created/retained for the 7(a) and 504 loan programs are reported side by side, even
though they are measured on a different basis, and cumulatively reported in SBA’s
performance report.




2
  Form 4 is the borrower portion of the 7(a) loan application. It is used for standard 7(a) loans and loans approved
  under delegated authority through the Preferred Lenders Program.
3
  Form 1920SX (Part B) is a supplemental information form completed by lenders when submitting loan information
  through the Preferred Lenders Program. Alternatively, these lenders can submit loan information to SBA
  electronically using SBA’s secure web site, E-Tran.
4
  Form 1919 is the borrower portion of the loan application for SBA’s express programs, including Community
  Express.
                                                                                     5




RECOMMENDATIONS

 We recommend that the Associate Administrator for Capital Access:

1. 	   Define “jobs retained” for the 7(a) program, provide justification for the
       approach, and issue guidance to lenders on this change. Furthermore,
       disclose any differences in metrics between programs in subsequent
       monthly Recovery Act Program Performance Reports and revise the
       cumulative “jobs created/retained” metric to reflect any change.

AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE

On March 25, 2010, we provided a draft of the report to SBA's Office of Capital
Access for comment. On April 27, 2010, the Associate Administrator for Capital
Access provided written comments, which are contained in their entirety in
Appendix V. Management agreed with our findings and stated that it would
provide a definition for the jobs retained in the 7(a) program and will issue
guidance to lenders on this change. SBA will also provide definitional guidance
on the metrics contained in its monthly Recovery Act Program Performance
Reports and disclose any material differences in these metrics. Management also
noted that a technical clarification was needed to footnote 3, indicating that SBA
Form 1920SX (Part B) is a supplemental information form completed by lenders.
The memorandum was modified to add clarifying language to footnote 3, as
requested.

The Associate Administrator’s comments were responsive to our recommendation.

ACTIONS REQUIRED

Please provide your management decision for the recommendation on the attached
SBA Form 1824, Recommendation Action Sheet, within 30 days from the date of
this report. Your decision should identify the specific action(s) taken or planned
for the recommendation and the target date(s) for completion.

We appreciate the courtesies and cooperation of the Small Business
Administration during this audit. If you have any questions concerning this report,
please call me at (202) 205-[FOIA Ex. 2] or Debra Mayer, Recovery
Oversight Group, at (202) 205-[FOIA Ex. 2].
                                                                                  6


APPENDIX I.          SCOPE AND METHODOLOGY

Our audit objective was to determine whether lenders reliably reported job
creation and retention statistics.

To determine whether lenders reliably reported job creation and retention
statistics, we reviewed a sample of 30 Recovery Act loans from 7(a) program
which disbursed between March 16, 2009 and May 31, 2009. We also reviewed a
sample of 30 Recovery Act loans from the 504 program which were approved
between March 16, 2009 and June 30, 2009. Of the 30 7(a) loans, 11 were
Community Express loans. The samples were selected from loan data extracted
from SBA’s Loan Accounting System. For each sampled loan, we reviewed the
loan file to determine whether there was documentation provided to support job
statistics. Because SBA does not require support in the loan file, we could not
determine the reliability of borrower reported data. Instead, we focused our efforts
on determining whether lenders and CDCs collected and reported job statistics
consistent with SBA’s guidance. For each loan sampled, we interviewed the 7(a)
lender or 504 Certified Development Company (CDC) to identify lender/CDC
efforts to collect and validate borrower-reported job statistics and to gain an
understanding of their interpretation of SBA guidance related to job data. Finally,
we reconciled job data provided by lenders and CDCs to SBA’s Loan Accounting
System to validate SBA’s job data.

To gain an understanding of SBA guidance and the job reporting process we
reviewed SBA regulations, standard operating procedures (SOPs), and policy
notices pertaining to job creation and retention data. We conducted interviews
with agency officials and we examined SBA’s public job creation and retention
reporting.

We conducted our review from September 2009 to January 2010 in accordance
with Government Auditing Standards prescribed by the Comptroller of the United
States and included such tests as were considered necessary to provide reasonable
assurance of detecting abuse or illegal acts.
                                                         7


APPENDIX II.       SBA RECOVERY ACT PERFORMANCE REPORT

Job Creation/Retention Reporting Section:
                                               8


APPENDIX III. JOB DATA FOR 7(A) SAMPLE LOANS

 Sample      Jobs       Jobs        # of 
    #      Created    Retained    Employees 
    1          0          5           5 
    2          3          0           5 
    3          4         12          12 
    4          6          0           0 
    5          0          7           7 
   6*          2          3           3 
    7          0          2           2 
   8*          0          4           4 
   9*          5          5           5 
   10          5         17          17 
   11          0          6           6 
   12          0          5           5 
   13          5         45          40 
   14          2         12          12 
   15          1          4           5 
   16          0          0           2 
   17*         0          2           2 
   18          3          9           9 
   19*         1          1           1 
   20*         0          4           4 
   21*         2          1           1 
   22*         0          2           2 
   23*         0          1           1 
   24*         1          5           5 
   25         10          1           1 
   26          7          5           5 
    27         0          7           7 
   28*         0          1           1 
    29         0         10          10 
    30         3          2           2 

* Denotes Community Express Loans
                                                  9


APPENDIX IV.         SBA LOAN APPLICATION FORMS

Form 4 (selection)
                        10


Form 1919 (selection)
                                   11


Form 1920SX (Part B) (selection)
                                                                                                    12


         APPENDIX V.              MANAGEMENT COMMENTS



                         U.S. SMALL BUSINESS ADMINISTRATION

                                   WASHINGTON, D.C. 20416





                 April 27, 2010

      TO:	       Debra S. Ritt 

                 Assistant Inspector General for Auditing 

  FROM: 	        Eric R. Zarnikow 

                 Associate Administrator 

                 Office of Capital Access

SUBJECT:         Review of SBA’s Job Creation Data Under the Recovery Act
                 Project No. 9513


  Thank you for the opportunity to respond to the Draft Report on the Review of SBA’s Job
  Creation Data Under the Recovery Act Project No. 9513 dated March 25, 2010. Please find our
  response to the proposed recommendation below.

  1.	 Define “jobs retained” for the 7(a) program, provide justification for the approach, and issue
      guidance to lenders on this change. Furthermore, disclose any differences in metrics between
      programs in subsequent monthly Recovery Act Program Performance Reports and revise the
      cumulative “jobs created/retained” metric to reflect any change.

  SBA will provide a definition for the jobs retained in the 7(a) program and will issue additional
  guidance to 7(a) lenders on how the information should be reported to the Agency. SBA will also
  provide definitional guidance on metrics it includes in the monthly Recovery Act Program
  Performance Reports. Material differences in these metrics reported by SBA in the monthly
  report will be disclosed.

  As discussed with your staff, we noted that there is a need for a technical clarification to Footnote
  3 of the draft report. SBA Form 1920SX (Part B) is not the “SBA eligibility checklist,” rather it
  is a supplemental information form supplied by the lender. The “SBA eligibility checklist” for
  PLP and Express loans is SBA Form 1920SX (Part C), a different form. Appendix IV should
  also reflect this clarification. The “selection” provided in Appendix IV contains part of the SBA
  Form 1920 (Part B), but states that it is a “selection” from the SBA Form 1920SX. This is not
  one form. There are three separate forms---SBA Form 1920SX (Part A), SBA Form 1920SX
  (Part B) and SBA Form 1920SX (Part C). The “selection” provided is from SBA Form 1920SX
  (Part B).

  We appreciate the opportunity to comment on the Draft Notice of Finding and Recommendation
  prepared by your office. Please let us know if you have any questions or need additional
  information.
